              E  

               

               

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA’s Handling of a
                     Proposed Alternative Method
                     for Measuring Oil and Grease
                     in Wastewater Met
                     Requirements But Controls
                     Need to Be Strengthened
                     Report No. 13-P-0317                    July 11, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Rick Beusse
                                                    Erica Hauck
                                                    Richard Jones




Abbreviations

ADP            Action Development Process
ATP            Alternate Test Procedure
CFR            Code of Federal Regulations
CWA            Clean Water Act
EASB           Engineering and Analytical Support Branch
EPA            U.S. Environmental Protection Agency
MUR            Methods Update Rule
NODA           Notice of Data Availability
NPDES          National Pollutant Discharge Elimination System
NTTAA          National Technology Transfer and Advancement Act
OIG            Office of Inspector General
OMB            Office of Management and Budget
OST            Office of Science and Technology
OW             Office of Water
VCSB           Voluntary Consensus Standards Body




Hotline
To report fraud, waste, or abuse, contact us through one of the following methods:

email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
fax:       202-566-2599                                       Mailcode 2431T
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                               13-P-0317
                                                                                                         July 11, 2013
                       Office of Inspector General


                       At a Glance

Why We Did This Review              EPA’s Handling of a Proposed Alternative Method
We received a hotline
                                    for Measuring Oil and Grease in Wastewater Met
complaint regarding the             Requirements But Controls Need to Be Strengthened
U.S. Environmental Protection
Agency’s (EPA’s) handling of a       What We Found
proposed alternative method for
measuring oil and grease in         EPA’s handling of the proposed alternative method for measuring oil and grease
wastewater, known as ASTM           in wastewater (ASTM D7575) adhered to applicable laws, regulations, policies,
D7575. Our objective was to         procedures, and guidance.
evaluate whether EPA, in
reviewing ASTM D7575,               However, during the course of our review, we identified management control
adhered to applicable laws,         weaknesses that need to be addressed. Because requests to consider alternative
regulations, policies,              methods for method-defined analytes have been rare, EPA did not have
procedures, and guidance.           established procedures for reviewing such methods. As such, the Agency faced
                                    unique challenges in reviewing ASTM D7575. The challenges pertained mainly to
The Clean Water Act requires        assessing comparability between ASTM D7575 and EPA’s current method for
EPA to establish and approve        measuring oil and grease without established Agency procedures. Although we
methods to measure pollutants       found that EPA took appropriate steps to make an informed decision on ASTM
in water and wastewater.            D7575, management control weaknesses contributed to confusion and delays,
Oil and grease is a regulated       and fostered concerns among some stakeholders about fairness, transparency,
pollutant cited in hundreds of      and preferential treatment for the developer of ASTM D7575. Specific EPA
thousands of permits.               management control weaknesses we identified include:
Regulators determine
compliance by using test             	 EPA lacked a formal procedure for reviewing proposed methods like ASTM
methods approved by EPA.                D7575, which delayed the review process due to differing views regarding
Oil and grease differs from             data and statistical analyses needs.
many other pollutants in that it     	 EPA lacked a clearly defined “cut-off” date for method submissions for the
is a “method-defined analyte” –         methods update rule, which fostered concerns about transparency, fairness,
a pollutant defined solely by the       and preferential treatment.
method used to measure it.           	 EPA’s communications with the method developer about pathways for
                                        method approval and other key matters were unclear, which led to confusion
This report addresses the               and misunderstandings about whether EPA was going to approve the
following EPA Goals or                  method.
Cross-Cutting Strategies:
                                    If not addressed, these management control weaknesses have the potential to
  Advancing science,               affect the timeliness of future EPA method reviews and perceptions of EPA’s
   research, and                    fairness and transparency.
   technological innovation.
  Protecting America’s              Recommendations and Planned Corrective Actions
   waters.
                                    We recommend that the Assistant Administrator for Water (1) establish a formal
For further information, contact
                                    procedure for reviewing proposed methods for method-defined analytes,
our Office of Congressional and
Public Affairs at (202) 566-2391.   (2) establish procedures for designating official cut-off dates for future proposed
                                    methods update rules, and (3) clarify on the Agency’s website the different routes
The full report is at:              for method review and approval. The Agency generally agreed with our report
www.epa.gov/oig/reports/2013/       and provided corrective actions and estimated completion dates that meet the
20130711-13-P-0317.pdf              intent of our recommendations. Also, the Office of Water issued a memorandum
                                    on June 6, 2013, establishing the procedures in recommendation 2; thus, we are
                                    closing this recommendation upon issuance of the final report.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                   THE INSPECTOR GENERAL




                                               July 11, 2013

MEMORANDUM

SUBJECT:       EPA’s Handling of a Proposed Alternative Method for Measuring Oil and Grease
               in Wastewater Met Requirements But Controls Need to Be Strengthened
               Report No. 13-P-0317

FROM:          Arthur A. Elkins Jr.

TO:	           Nancy Stoner, Acting Assistant Administrator
               Office of Water

This is our report on the subject evaluation conducted by the Office of the Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report describes issues the OIG identified and
makes recommendations to address these issues. The report represents the opinion of the OIG and does
not necessarily represent the final EPA position. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report, because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the intent of
our recommendations. Recommendations 1 and 3 remain open with corrective actions ongoing.
Please update the EPA’s Management Audit Tracking System as you complete the planned corrective
actions for recommendations 1 and 3. Since the Office of Water already completed actions that meet the
intent of recommendation 2, we are closing recommendation 2 upon issuance of this final report.
Please notify my staff if there is a significant change in the agreed-to corrective actions.

We have no objections to the further release of this report to the public. We will post this report on our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov, or Director for
Air and Research Evaluations Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
EPA’s Handling of a Proposed Alternative Method                                                                             13-P-0317
for Measuring Oil and Grease in Wastewater Met
Requirements But Controls Need to Be Strengthened



                                   Table of Contents 


Chapters
   1	   Introduction ........................................................................................................       1


                Purpose .......................................................................................................     1    

                Background .................................................................................................        1    

                Scope and Methodology ..............................................................................                4    


   2	   EPA Adhered to Applicable Laws and Regulations
        But Needs a Framework and Procedures for Conducting
        Reviews of Methods Like ASTM D7575............................................................                              6


                EPA’s Review of ASTM D7575 Adhered to Applicable Laws, 

                   Regulations, Policies, Procedures, and Guidance ................................                                 6

                ASTM D7575 Posed Unique Challenges, and EPA Took 

                   Appropriate Steps to Make an Informed Decision .................................                                 8

                OW Lacked Procedures for Reviewing Proposed Methods 

                   for Method-Defined Analytes .................................................................                  12 

                OW’s Method Review Process Lacked Other Important 

                   Management Controls ...........................................................................                13 

                Conclusions.................................................................................................      15 

                Recommendations ......................................................................................            15 

                Agency Comments and OIG Evaluation………………………………………                                                                 16 


   Status of Recommendations and Potential Monetary Benefits ..............................                                       17




Appendices
   A	   EPA’s Adherence to Applicable Laws, Regulations, 

        Policies, and Guidance ......................................................................................             18


   B	   Agency Comments on Draft Report .................................................................                         20 


   C    D
        	 istribution .........................................................................................................   22

                                               Chapter 1

                                                Introduction
Purpose
                   The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                   (OIG) received a hotline complaint concerning EPA’s handling of
                   “ASTM D7575,” a proposed alternative method for measuring oil and grease in
                   wastewater. In response to the allegations, we assessed whether EPA adhered to
                   applicable laws, regulations, policies, procedures, and guidance in reviewing
                   ASTM D7575 as an alternative method1 for measuring oil and grease, and in
                   issuing the proposed Methods Update Rule (MUR) and subsequent Notice of Data
                   Availability (NODA).

Background
                   The Clean Water Act (CWA) requires EPA to establish and promulgate test
                   procedures (i.e., methods) to measure pollutants regulated by CWA programs.
                   This includes establishing methods for measuring pollutants in wastewater under
                   the National Pollutant Discharge Elimination System (NPDES) program.
                   Under this program, point source2 discharges must meet the discharge limits for
                   regulated pollutants as identified in their NPDES permits. To determine
                   compliance, regulated pollutants must be measured using available methods
                   approved by EPA.

                   Oil and grease3 is a regulated wastewater pollutant that is included in hundreds of
                   thousands of NPDES permits. However, oil and grease differs from many other
                   wastewater pollutants in that oil and grease is a method-defined analyte.
                   A method-defined analyte is an analyte (e.g., pollutant) that is defined solely by
                   the method used to measure the amount of the analyte. In the case of oil and
                   grease, measurement for regulatory purposes is dependent on the use of
                   EPA Method 1664A. This method uses n-hexane as an extracting solvent for
                   determining the amount of oil and grease in a wastewater sample. As such, the
                   measurement of oil and grease depends on the use of n-hexane to extract oil and
                   grease from the sample.


1
  We use the term “alternative method” to mean a method that could be used in lieu of, or as a replacement for, the

existing approved method for oil and grease.

2
  CWA Section 502(14) generally defines a point source as “any discernible, confined and discrete conveyance, 

including but not limited to any pipe, ditch, channel, tunnel, conduit, well, discrete fissure, container, rolling stock, 

concentrated animal feeding operation, or vessel or other floating craft, from which pollutants are or may be 

discharged.”

3
  “Oil and grease” is a singular category of pollutant that is regulated by the CWA. Although they may be different 

substances, oil and grease are regulated as one singular pollutant. 



13-P-0317                                                                                                                 1
                   Two Routes for Nationwide Approval of New Methods and
                   Method Modifications

                   The Office of Science and Technology (OST) within EPA’s Office of Water
                   (OW) is responsible for reviewing and promulgating methods for measuring
                   pollutants for CWA applications, including alternatives to existing methods.
                   Specifically, OST’s Engineering and Analytical Support Branch (EASB) reviews
                   proposed new methods and modifications to existing methods that are submitted
                   for approval. If EASB finds that a method or modification meets certain criteria,
                   it conditionally approves the method or modification. Methods that EASB
                   conditionally approves must then be proposed and promulgated through the
                   formal rulemaking process. Because promulgating individual methods separately
                   would be very resource-intensive, EASB periodically4 combines numerous
                   proposed methods and modifications into a proposed MUR. Once these rules are
                   finalized, the approved methods are codified per the Code of Federal Regulations
                   (CFR) at 40 CFR Part 136 and can be used nationwide to determine compliance
                   with NPDES permits.

                   As shown in figure 1, there are two distinct routes through which a proposed new
                   method or modification may be reviewed and approved by EPA in 40 CFR Part 136.

     Figure 1: Routes of method review and approval




     Source: OIG analysis.

     VCSB - Voluntary Consensus Standards Body




4
    According to EASB, methods update rules are promulgated approximately every 4 years.


13-P-0317                                                                                          2
                      The first route is EPA’s Alternate Test Procedure (ATP) program. Under this
                      program, method developers submit an application for a proposed new method or
                      modification directly to EASB for nationwide use. The ATP program has
                      established formal protocols for reviewing new methods and modifications
                      submitted through this route. These protocols lay out specific requirements, such
                      as validation studies that must be conducted for the method to be proposed by
                      EPA in a MUR.

                      The second route involves methods that are adopted by a voluntary consensus
                      standards body (VCSB)5 such as ASTM International6 and Standard Methods.7
                      VCSBs may submit methods and modifications they have adopted to EPA under
                      the provisions of the National Technology Transfer and Advancement Act
                      (NTTAA) of 1995. The NTTAA requires EPA to adopt methods approved by
                      VCSBs unless doing so would be inconsistent with applicable laws or otherwise
                      impractical. Methods submitted to EPA via either route (ATP or NTTAA) must
                      be reviewed by EASB and, if appropriate, proposed and ultimately promulgated
                      in a MUR.

                      EPA’s Rulemaking and Review of Proposed Methods Are Governed
                      by Multiple Statutes, Regulations, Policies, and Guidance

                      Regardless of the route of approval used, there are several laws, regulations, and
                      guidance – generally referred to as criteria – that govern EPA’s methods update
                      rulemakings and review of proposed methods. These include the following:
Table 1: Criteria governing EPA’s rulemaking process and review of proposed methods
          Criteria document                                          Brief description
    Administrative Procedure Act      This act lays out the general requirements for rulemakings for all federal
                                      agencies. This includes the publication of proposed rules in the Federal Register.
    Clean Water Act                   Section 304 (h) of the CWA requires EPA to promulgate guidelines establishing
                                      test procedures for the measurement of pollutants under the NPDES program.
    40 CFR Part 136                   40 CFR Part 136 describes EPA’s general guidelines for establishing test
                                      procedures for analysis and measurement of pollutants regulated under the
                                      NPDES program. It also lays out the application process to be followed by
                                      method developers when submitting an application to EPA under the CWA ATP
                                      program.
    EPA’s Action Development          The ADP is a comprehensive framework to ensure that EPA develops quality
    Process (ADP): Guidance for       actions, including rulemakings. Its intent is to ensure the use of quality
    EPA Staff on Developing Quality   information and an open process to support Agency actions.
    Actions (revised March 2011)
Source: OIG analysis.



5
  A VCSB is a domestic or international organization that plans, develops, establishes, or coordinates voluntary

consensus standards using agreed-upon procedures.

6
  ASTM International, formerly known as the American Society for Testing and Materials, was established in 1898, 

and provides a global forum for the development and publication of international voluntary consensus standards. 

ASTM has over 30,000 members from 150 countries.

7
  Standard Methods, like ASTM International, is a voluntary consensus standard body that regularly submits 

methods to OW for approval.



13-P-0317                                                                                                            3
                   In addition, the NTTAA and Office of Management and Budget (OMB)
                   Circular A-119 apply specifically to methods developed by VCSBs. These are
                   summarized below.

Table 2: Criteria applicable to methods developed by VCSBs
      Criteria document                                         Brief description
    NTTAA                     Section 12(d) states that federal agencies shall use technical standards developed or
                              adopted by VCSBs, unless doing so would be inconsistent with applicable law or
                              otherwise impractical. EPA has interpreted technical standards to include test methods.
    OMB Circular A-119        This circular establishes policies for federal agencies in implementing the NTTAA. The
    (revised February 1998)   circular states that agencies have discretion to decline to use a standard developed by
                              a VCSB, if the agency determines that such standards are inconsistent with applicable
                              law or otherwise impractical.
Source: OIG analysis.

                   EPA Reviewed Proposed Alternative Method ASTM D7575 During Its Most
                   Recent Methods Update Rulemaking

                   EPA reviewed ASTM D75758 as part of its most recent methods update
                   rulemaking as an alternative method for oil and grease. EPA issued a proposed
                   MUR in September 2010 that included numerous new methods and method
                   modifications. In the proposed MUR, EPA stated that it was not planning to
                   approve ASTM D7575 because it does not use n-hexane to extract oil and grease.
                   However, after the proposed MUR was issued, EPA received additional
                   information on ASTM D7575 and conducted additional review of the method.
                   Subsequently, in December 2011, EPA issued a NODA to reconsider ASTM
                   D7575 as an alternative method for oil and grease, and requested public comment
                   on the method. EPA’s review and handling of ASTM D7575 is discussed in
                   greater detail in chapter 2.

Scope and Methodology
                   We conducted our review from April 2012 to March 2013. We conducted this
                   performance review in accordance with generally accepted government auditing
                   standards. Those standards require that we plan and perform the review to obtain
                   sufficient, appropriate evidence to provide a reasonable basis for our findings and
                   conclusions based on our review objectives. We believe that the evidence
                   obtained provides a reasonable basis for our findings and conclusions based on
                   our review objective.

                   To address our objective, we reviewed the proposed MUR, the NODA to
                   reconsider ASTM D7575, the final MUR, and relevant information in the
                   rulemaking docket. We also reviewed the analyses and studies conducted by the
                   method developer and ASTM, as well as documents pertaining to EPA’s review

8
 We use the term “ASTM D7575” in this report to refer to the alternative method for oil and grease from its initial
development through its adoption by ASTM. However, the method did not obtain the designation of ASTM D7575
until it was adopted by ASTM in January 2010.


13-P-0317                                                                                                             4
            of the method. We reviewed applicable statutes, regulations, policies, procedures,
            and guidance, including the following:

                  Clean Water Act (CWA) 

                  National Technology Transfer and Advancement Act (NTTAA) 

                  Administrative Procedure Act 

                  40 CFR Part 136 – Guidelines Establishing Test Procedures for the 

                   Analysis of Pollutants
                  EPA’s Action Development Process (ADP) Guidance
                   (revised March 2011)
                  Protocol for EPA Approval of Alternate Test Procedures for Organic and
                   Inorganic Analytes in Wastewater and Drinking Water (OW, March 1999)
                  Protocol for EPA Approval of New Methods for Organic and Inorganic
                   Analytes in Wastewater and Drinking Water (OW, March 1999)

            We interviewed EPA OW personnel, including EASB staff and managers,
            Office of Groundwater and Drinking Water staff, OW’s senior regulatory
            manager, and OW’s Deputy Assistant Administrator. We also interviewed EPA’s
            standards executive (the Agency’s NTTAA expert), and staff and managers from
            EPA’s Office of General Counsel, Office of Congressional and Intergovernmental
            Relations, and Office of Policy. We also interviewed the complainant and
            reviewed documents, emails, and other materials provided.




13-P-0317                                                                                    5
                                  Chapter 2

   EPA Adhered to Applicable Laws and Regulations 

     But Needs a Framework and Procedures for 

   Conducting Reviews of Methods Like ASTM D7575 

            EPA’s review of ASTM D7575 and issuance of the proposed MUR and
            subsequent NODA adhered to applicable laws, regulations, policies, procedures,
            and guidance. However, during our review, we found management control
            weaknesses that need to be addressed. Specifically, EPA lacked a framework and
            procedures for reviewing alternative methods for method-defined analytes, such
            as ASTM D7575, which led to challenges in reviewing the method. The primary
            challenge EPA faced was in assessing the comparability of ASTM D7575 to the
            existing method for measuring oil and grease. EPA’s lack of established
            procedures stemmed from the fact that it generally had not considered approving
            proposed alternative methods for method-defined parameters in the past, and
            requests to do so had been very rare. Because of its inexperience in reviewing
            such methods, OW had to devise the review process for ASTM D7575 as it went
            along. We found that OW took appropriate steps to review ASTM D7575 and
            make an informed decision, despite the challenges it faced and its lack of
            procedures for reviewing such alternative methods. However, the lack of an
            established review framework, and other management control weaknesses,
            contributed to confusion and delays in the review process, and contributed to
            concerns from stakeholders regarding preferential treatment of ASTM D7575.
            If not addressed, these weaknesses have the potential to affect the timeliness of
            future EPA method reviews and perceptions of EPA’s fairness and transparency.

EPA’s Review of ASTM D7575 Adhered to Applicable Laws, 

Regulations, Policies, Procedures, and Guidance 

            EPA adhered to applicable statutes, regulations, policies, procedures, and
            guidance during its review of ASTM D7575. Specifically, we found that EPA
            adhered to the following in its review of ASTM D7575:

                   The Administrative Procedure Act
                   The CWA
                   40 CFR Part 136
                   EPA’s ADP: Guidance for EPA Staff on Developing Quality Actions
                    (revised March 2011)
                   The NTTAA
                   OMB Circular A-119 (revised February 1998)
            Appendix A provides details on EPA’s adherence to each of the above criteria
            during its review of ASTM D7575.


13-P-0317                                                                                       6
            Two key documents governing EPA’s actions in the MUR rulemaking and review
            of ASTM D7575 are the EPA’s ADP guidance and the NTTAA. EPA’s actions to
            adhere to the requirements of these two documents are discussed in detail below.

            Action Development Process Guidance

            The ADP provides guidance for properly categorizing the type and significance of
            EPA’s actions. This process is known as “tiering” the Agency action. The ADP
            also provides guidance for assembling workgroups and selecting the appropriate
            action for the desired outcome. In reviewing ASTM D7575, OW followed the
            ADP guidance related to these three areas.

            EPA tiered the MUR as a Tier 3 action, which we believe is an appropriate tier
            level for this action. Per the ADP, significant actions such as rulemakings are tiered
            according to multiple factors. These factors include the complexity of the action,
            the need for cross-agency input and senior leadership involvement, and potential
            impacts. Actions are designated as Tier 1, Tier 2, or Tier 3. Tier 1 actions are the
            most complex and have the greatest need for cross-agency input and senior
            leadership involvement, and the greatest potential impacts. According to the
            Director of the Regulatory Management Division in EPA’s Office of Policy,
            almost all MURs across the Agency are Tier 3 actions. Further, the Director said
            that NODAs are typically tiered the same as the adjoining rulemaking. Thus, it was
            acceptable for OW to tier the NODA for ASTM D7575 as a Tier 3 action because
            this was consistent with the tiering of the associated MUR.

            For Tier 3 rules, a workgroup is not required. However, it is required for actions
            tiered at higher levels (i.e., Tier 1 and Tier 2). Although not required by EPA’s
            ADP guidance, OW assembled an intra-agency workgroup to review both the
            MUR and NODA. The workgroup chair shared drafts of the proposed MUR, the
            NODA, and the final MUR with workgroup members for review and comment.

            Also, the decision to issue the NODA involved senior EPA leadership. The
            OW Deputy Assistant Administrator reviewed a couple of options pertaining to
            ASTM D7575 and selected the option he determined to be most appropriate. This
            is consistent with EPA’s ADP guidance.

            National Technology Transfer and Advancement Act

            The NTTAA requires EPA to use test methods adopted by VCSBs, such as
            ASTM D7575, unless the Agency determines that the method does not meet
            Agency requirements. EPA considered ASTM D7575 in accordance with the
            NTTAA. After ASTM approved the method, EPA staff reviewed the data from
            the ASTM studies. In particular, EPA focused on the assessments of
            comparability between ASTM D7575 and Method 1664A. Further, EPA spent




13-P-0317                                                                                        7
                considerable time and effort reviewing the method to determine whether it was
                practical and appropriate to approve the method.

ASTM D7575 Posed Unique Challenges, and EPA Took Appropriate
Steps to Make an Informed Decision

                The proposal of ASTM D7575 as an alternative method for oil and grease posed
                unique challenges to EPA because oil and grease, unlike most other pollutants, is
                a method-defined analyte. The measurement of oil and grease is dependent on the
                use of n-hexane to extract oil and grease from a sample. This is outlined in EPA
                Method 1664A. ASTM D7575, in contrast, does not use n-hexane. Instead, it uses
                an extracting membrane. Further, Method 1664A uses gravimetric measurement,
                whereas ASTM D7575 uses infrared absorption measurement to measure a
                sample. Thus, the two methods use different determinative techniques.9 Because
                of these differences, the main challenge for EPA was to assess whether using
                ASTM D7575 to measure oil and grease in a sample would yield results
                comparable to using EPA Method 1664A.

                While EPA has a protocol10 for assessing comparability between methods for
                non-method-defined analytes, it does not have an established process to assess
                comparability for method-defined analytes. Prior to ASTM D7575, EPA’s
                informal practice had been generally to deny proposals for new or alternative
                methods for method-defined analytes based on different determinative techniques.
                Further, such requests were very rare. The only time that EPA had approved a
                new method for measuring oil and grease in wastewater was when the Agency
                had to change its former method because it used Freon as the extracting solvent.
                EPA had to discontinue using Freon under the 1987 Montreal Protocol on
                Substances that Deplete the Ozone Layer. After conducting several comparability
                studies, EPA approved Method 1664A in 1999 for measuring oil and grease in
                wastewater. This changed the extracting solvent from Freon to n-hexane.

                However, ASTM D7575 appeared to have some advantages over EPA Method
                1664A that, in combination with additional data received after the proposed
                MUR, led EPA to reconsider its informal practice to deny such methods. For
                example, ASTM D7575 does not use n-hexane, which poses potential health risks,
                particularly at higher levels. Also, ASTM D7575 had potential to lower analytical
                costs to users. ASTM International also approved ASTM D7575. Under the
                provisions of the NTTAA, EPA is required to adopt methods approved by VCSBs
                like ASTM International, unless doing so would be inconsistent with applicable
                laws or otherwise impractical. As such, after reviewing additional data, EPA
                decided to review ASTM D7575 to determine its viability as an alternative to
                EPA Method 1664A. Its viability hinged primarily on its comparability to Method

9
 A determinative technique is defined as the way in which an analyte is identified and quantified.
10
 Protocol for EPA Approval of Alternate Test Procedures Methods for Organic and Inorganic Analytes in
Wastewater and Drinking Water (EPA 821-B-98-002, March 1999).


13-P-0317                                                                                               8
                1664A – specifically, whether it would produce measurement results comparable
                to Method 1664A. Details concerning EPA’s review and assessment of ASTM
                D7575 are described below.

                EPA’s Review of ASTM D7575 Prior to Issuance of the Proposed MUR

                In April 2009, the company that initiated development of ASTM D7575
                (hereinafter, “the method developer”) sent an early version of the method to the
                ATP coordinator in EASB and asked him to review the method. The method
                developer did not submit an ATP application for formal evaluation under the ATP
                program. In an email response to the method developer, the ATP coordinator
                outlined several concerns with the draft method. He also stated that “multi-matrix,
                multi-lab full validation” would be required before EPA would consider
                approving the method.

                After this communication, the method developer began working with ASTM
                International to get the method adopted by the organization. In September 2009,
                the method developer submitted to EPA a summary report of its multi-laboratory
                validation study for D7575. The study was conducted for ASTM as part of the
                ASTM approval process. Soon after, the ATP coordinator asked to see all of the
                raw data from the study. Later that month, EPA requested that its independent
                contractor review the information provided on D7575 and the validation study.
                The contractor had concerns with the data, including that there was no raw data
                from the labs. The contractor agreed with the need for further testing of ASTM
                D7575. In January 2010, ASTM adopted D7575.11

                In March 2010, the EPA MUR workgroup was asked to review and comment on
                ASTM D7575. In response, several EPA regional staff expressed concerns. In
                particular, there were concerns with the comparability of ASTM D7575 to EPA
                Method 1664A. There were also concerns because oil and grease is an analyte
                defined by Method 1664A. EPA did not recommend ASTM D7575 for approval
                in the September 2010 proposed MUR because it does not use n-hexane as the
                extracting solvent. ASTM D7575 used a different extraction technique than EPA
                Method 1664A.

                EPA’s Review of ASTM D7575 After Issuance of the Proposed MUR

                Upon learning that ASTM D7575 was not going to be recommended for approval in
                the proposed MUR, the method developer contacted its senator’s office. According
                to documentation provided to EPA by the method developer, the method developer
                had been under the impression that EPA was going to recommend ASTM D7575 for
                approval in the proposed MUR. Staff from the senator’s office contacted EPA about
                its decision. A congressional liaison specialist in EPA’s Office of Congressional and
                Intergovernmental Relations told us that it is quite common for senators to contact

11
  ASTM sent a letter to EPA on September 21, 2010, formally requesting that the Agency consider ASTM D7575
as an alternative method for determining oil and grease in wastewater.


13-P-0317                                                                                                    9
            EPA on behalf of the interests of their constituents. He estimated that his office
            receives calls from members of Congress almost daily. Although a senator’s
            involvement on a specific issue may bring additional attention to that issue, it does
            not mean that preferential treatment occurred, according to the congressional liaison
            specialist. He said the senator’s staff were primarily concerned with whether method
            ASTM D7575 received a fair and thorough review by EPA.

            After the senator’s office contacted EPA, Agency managers and staff attended
            several meetings with the method developer, ASTM, and staff from the senator’s
            office. At these meetings, EPA staff discussed concerns they had with ASTM
            D7575, specifically with its comparability to Method 1664A. Some EPA staff,
            particularly the ATP coordinator, had concerns about whether the data from the
            ASTM studies showed that ASTM D7575 was comparable to Method 1664A.
            EPA requested that the method developer and ASTM provide more data on
            ASTM D7575, particularly assessments of comparability between ASTM D7575
            and Method 1664A. In October 2010, the method developer provided the
            following data to EASB:

                   Raw data from the single- and multi-lab studies conducted for ASTM
                    approval
                   An expanded validation report
                   Comparability statistics from the single lab validation
                   Answers to EPA’s most recent questions

            An EPA contractor reviewed the method developer’s data and concluded that
            ASTM D7575 was not statistically comparable to EPA Method 1664A in most
            scenarios. EPA statisticians also reviewed the data and reached similar
            conclusions.

            In addition, EPA received and reviewed numerous public comments to the
            proposed MUR that pertained to ASTM D7575. One commenter submitted an
            analysis conducted by a statistician which concluded that ASTM D7575
            “is statistically equivalent” to Method 1664A. Another commenter submitted a
            report documenting the health risks posed by n-hexane, the solvent used in
            EPA Method 1664A. Also, the method developer submitted over 80 documents in
            its comments on the proposed rule. Most of these documents did not provide new
            data on ASTM D7575 beyond what was provided to EASB via email in
            October 2010.

            In June 2011, ASTM provided written responses to several EPA questions
            pertaining to technical issues and the statistical analyses conducted by the method
            developer and ASTM. In its written responses, ASTM made it clear that its
            intention was for D7575 to be an alternative method to EPA Method 1664A,
            with the same regulatory standing as Method 1664A. ASTM also stated that it
            disagreed with the EPA contractor’s statistical assessment.




13-P-0317                                                                                    10
                 Despite the new information provided by the method developer and ASTM,
                 EASB staff continued to have concerns about comparability of ASTM D7575
                 with EPA Method 1664A. In particular, they were concerned with the breadth of
                 matrices (types of wastewater samples) that had been tested. Thus, in June 2011,
                 EASB requested that ASTM test ASTM D7575 in three additional matrices
                 selected by EASB staff. According to the EASB branch chief, EPA told ASTM
                 that EPA would consider issuing a NODA for ASTM D7575 if ASTM tested
                 these additional matrices, pending positive results. ASTM subsequently tested the
                 three additional matrices12 and issued a report to EPA in November 2011.13 In that
                 report, ASTM concluded that the results for the new matrices demonstrated
                 comparability between ASTM D7575 and Method 1664A.

                 OW looked at the new matrices tested along with all other data submitted by the
                 method developer and ASTM after the proposed MUR. Based on this information,
                 OW determined that it was worthwhile to issue a NODA to reconsider ASTM
                 D7575 and obtain public comment on the information obtained to date.

                 EPA Issued NODA to Reconsider ASTM D7575

                 On December 14, 2011, EPA published a NODA to reconsider ASTM D7575 as
                 an alternative to Method 1664A. The NODA was based primarily on the new
                 information from the method developer and ASTM. In the NODA, EPA did not
                 state whether they would be approving ASTM D7575 as an alternative to
                 Method 1664A (i.e., with the same regulatory standing). Rather, EPA stated that
                 ASTM D7575 was a good “stand alone method.” EPA provided the following
                 three reasons for reconsidering ASTM D7575:

                      1.	 EPA’s analysis demonstrates ASTM D7575 is an acceptable stand-alone
                          method for the measurement of oil and grease in wastewater, producing
                          results “generally very close” to those obtained using EPA Method 1664A
                          for the matrices tested.
                      2.	 ASTM D7575 has advantages over 1664A, including that its membrane is
                          a green technology (e.g., it uses a solventless extraction, there is no
                          solvent waste, and no analyst exposure to solvent).
                      3.	 ASTM D7575 may offer other advantages such as ease of analysis,
                          reduced analysis time, and lower analytical costs.

                 In the NODA, EPA solicited public comment on several topics. These included
                 whether EPA should reconsider promulgating ASTM D7575 as an additional
                 method for oil and grease, and provisions pertaining to side-by-side comparisons
                 for permitting purposes.

12
   The three additional matrices that ASTM tested were from the following categories: a large refinery, a large food
and restaurant complex, and a large chemical manufacturer.
13
   Study Report from the Testing of Additional Industrial Wastewater Matrices in Support of ASTM Standard D7575
for USEPA’s Reconsideration of this Method in the Forthcoming Method Update Rule (ASTM D19.06
Subcommittee, November 2011).


13-P-0317                                                                                                         11
                EPA Issued Final Decision to Not Approve ASTM D7575 on a
                Nationwide Basis

                On March 6, 2013, EPA issued a notice of final decision in the Federal Register,
                stating that it is not approving ASTM D7575 as an alternative method for oil and
                grease on a nationwide basis. According to the notice, this decision was based
                primarily on the fact that oil and grease is a method-defined analyte and
                comparability between ASTM D7575 and Method 1664A had not been
                established on a wide-scale basis. However, EPA stated that permittees could
                apply for limited use approval through the regional ATP coordinators to use
                ASTM D7575 for limited, specific uses. Such approval would require
                demonstrating comparability between ASTM D7575 and 1664A for the intended
                use by the permittee. Additionally, OW developed and provided guidance to the
                regional ATP coordinators for evaluating the comparability of ASTM D7575 to
                EPA Method 1664 for limited use approvals. This guidance was issued to the
                regions at the time the final decision was published in March 2013.

OW Lacked Procedures for Reviewing Proposed Methods for
Method-Defined Analytes
                The challenges posed by ASTM D7575 stemmed from the fact that EPA had not
                considered a new, VCSB-approved method for oil and grease in the past, and did
                not have a procedure in place for reviewing proposed methods for method-defined
                analytes. As such, EPA had no clearly defined data requirements or criteria to
                assess the comparability of ASTM D7575 and EPA Method 1664A. This resulted
                in confusion between the method developer and EPA. It also led to numerous
                formal and informal exchanges regarding data requirements and next steps. In the
                end, OW used the comparison studies done when EPA replaced Freon in 1999 as
                a general framework for reviewing ASTM D7575. However, an OW manager told
                us it is uncertain whether that is the best approach to use.

                OW managers told us they are uncertain about a one-size-fits-all approach to
                approving proposed methods for method-defined analytes. At the same time,
                they want to provide flexibility to method developers to foster technological
                advancements in measurement methods. OW managers realize that new methods
                may be improvements over existing methods. They also anticipate that EPA will
                get more requests of this nature in the future, particularly now that they have
                considered an alternative method for oil and grease that does not use n-hexane.

                OW’s protocol14 for reviewing new methods (for non-method-defined analytes)
                under the ATP program sets the expectation that the ATP and rulemaking
                processes can take a year or more to promulgate a major modification or a new
                technology. However, the Agency’s review of ASTM D7575 took more than

14
 Protocol for EPA Approval of New Methods for Organic and Inorganic Analytes in Wastewater and Drinking
Water (EPA 821-B-98-003, March 1999).


13-P-0317                                                                                                 12
            3 years to complete. Much of this delay was due to the lack of a formal procedure
            for reviewing new methods for method-defined analytes, and the resulting
            confusion about what data and statistical analyses are required to assess
            comparability. An established framework and procedures for method-defined
            analytes that is communicated up front to the method developer and/or VCSB
            would better explain EPA’s expectations for data quality. It would also reduce the
            confusion around EPA’s data requirements.

OW’s Method Review Process Lacked Other Important
Management Controls
            In addition to the lack of procedures for reviewing alternative methods for
            method-defined analytes, we found that EPA’s method review process lacked
            other important management controls. Specifically, regarding EPA’s review of
            ASTM D7575:

                  EPA lacked a firm “cut-off” date for 
               “Pens Down” Memorandum
                   method submissions for the MUR, 

                                                                    We have received many helpful
                   resulting in Agency staff and external 
         suggestions, insights, and products from
                   stakeholders having different 
                  Part 136 community members including
                                                                    ASTM International, the Standard Methods
                   interpretations of a July 2009 
                 Committee, laboratory auditors, and
                   “pens down” memorandum.
                         method developers. We are now moving
                  EPA did not clearly and consistently 
           forward to incorporate the many
                                                                    improvements and revisions. Our scientists
                   communicate with the method developer 
          are assembling and writing the
                                                                    documentation required to publish
                   and ASTM regarding potential pathways 
          proposed changes to the regulations at
                   for approval and other key matters. 
            40 CFR Part 136. Publication in the
                                                                    Federal Register, and responding to public
                                                                    comment are part of the critical path to
            Ambiguous “Cut-off” Date for 
                          allow the 136 community to use these tools
                                                                    for compliance monitoring.
            Methods Submissions 

                                                                    Because all of us want these valuable
                                                                    revisions out for internal Agency review
            In the most recent MUR rulemaking, OW
                  and subsequent public review, we are
            provided notice to methods developers as to when 
      drafting the proposed rule with the methods
                                                                    and suggestions collected so far.
            it would no longer accept additional proposed 
         Thus, you have no need to begin or rush
            methods for consideration in the rulemaking. This
      development of a new laboratory study, or
                                                                    ongoing method-testing project. Meanwhile
            notification to stakeholders is known as the pens 
     if you have a new method, you may ask to
            down memorandum. On July 20, 2009, the ATP 
            put it into the queue of methods in the
                                                                    Clean Water Act (CWA) and Safe Drinking
            coordinator sent a pens down memo, written by 
         Water Act (SDWA) alternate test procedure
            the former EASB branch chief, via email to a 
          (ATP) programs. We remind developers
                                                                    that the flexibility at 40 CFR Part 136.6 to
            limited number of external stakeholders. The 
          modify and use a Part 136 method has
            memo stated that: 
                                     eliminated the previous need for EPA to
                                                                    review, under the ATP program, most
                                                                    modifications. In addition, the 1996 SDWA
                   …Because all of us want these valuable           amendments allow use of methods for
                                                                    drinking water compliance monitoring
                   revisions out for internal Agency review         without conducting the rulemaking
                   and subsequent public review, we are             required for CWA methods.
                   drafting the proposed rule with the
                   methods and suggestions collected so far.


13-P-0317                                                                                           13
                         Thus, you have no need to begin or rush development of a new laboratory
                         study, or ongoing method-testing project. Meanwhile if you have a new
                         method, you may ask to put it into the queue of methods in the Clean
                         Water Act (CWA) and Safe Drinking Water Act (SDWA) alternate test
                         procedure (ATP) programs….

                 OW’s memo did not clearly state whether a method must be fully approved by the
                 date of the memo or whether the method could still be in review (i.e., not
                 finalized). This resulted in ambiguity and differing perceptions of the meaning of
                 the memo. The ATP coordinator said his interpretation was that the method
                 submission process must have been completed by the memo date. However, the
                 current EASB branch chief said that the memo meant if a method developer has
                 not submitted a new method or started the approval process they should not
                 bother doing so now. In her view, the memo did not mean that all data for a
                 specific method had to be submitted by that date.

                 The ATP coordinator and another method developer interpreted the pens down
                 memo as an approval cut-off date. Thus, when Method D7575, which was
                 adopted by ASTM almost 6 months after the cut-off date, was included in the
                 proposed MUR, these stakeholders perceived this as preferential treatment. For
                 example, the other method developer wrote to EPA stating that EPA should have
                 also considered its method after the cut-off date, as EPA had done with ASTM
                 D7575.15 The company said that EPA was not providing its proposed method
                 with a “level playing field in comparison with other methods.” Further, the ATP
                 coordinator stated that EPA continued to review ASTM D7575 past the
                 pens down deadline but did not consider other methods.

                 Processes for Communications With Stakeholders Need Improvement

                 OW did not clearly and consistently communicate with the method developer and
                 ASTM during its review of ASTM D7575. When the method developer first
                 approached OW staff in April 2009, the Agency did not clearly explain that there
                 were two distinct approval pathways: through EPA’s ATP process or through a
                 VCSB. Further, this information had not been communicated on EPA’s public
                 website. According to the EASB branch chief, EPA recognizes this issue and has
                 recently clarified with ASTM International the two distinct pathways for
                 obtaining approval.

                 Following the method developer’s decision to seek approval through ASTM,
                 EPA did not clearly explain to the method developer that communications from
                 that point forward should be between EPA and ASTM, not between EPA and the
                 method developer. EASB staff continued to communicate directly with the
                 method developer throughout and following ASTM’s review of D7575. For

15
   The method submitted by this other method developer was not reviewed and conditionally approved by EPA until
late June 2010, less than 3 months before the proposed MUR was published, whereas ASTM D7575 was adopted by
ASTM in January 2010.


13-P-0317                                                                                                   14
            example, the method developer continued to submit materials for EPA review
            after submitting them to ASTM. The method developer also believed that EASB
            staff had approved its validation study plans, which EASB staff have denied.
            EPA’s continued correspondence with the method developer led to confusion as
            to whether EPA was planning to recommend ASTM D7575 for approval. Based
            on our review of written communications between the method developer and
            EPA, EPA did not state that it was planning to recommend ASTM D7575 for
            approval. However, we identified one email the former EASB branch chief sent to
            the method developer that was open to interpretation. The method developer
            viewed this email as evidence that ASTM D7575 would be recommended in the
            proposed MUR.

            EPA’s ongoing communication with the method developer also contributed to the
            perception from some stakeholders that the method developer received
            preferential treatment. In our view, OW’s lack of controls governing its
            communications with external stakeholders contributed to this perception.

Conclusions

            EPA’s review of ASTM D7575 adhered to applicable laws, regulations, policies,
            procedures, and guidance. Further, EPA took appropriate steps to address the
            challenges posed by ASTM D7575 and to make an informed decision, despite the
            lack of an established procedure for reviewing proposed new or alternative
            methods for method-defined analytes. Improved management controls are needed
            to ensure that EPA’s method reviews avoid perceptions of partiality and
            unfairness. Such controls would also ensure that reviews are completed in a more
            transparent, timely manner. The lack of a formal procedure for reviewing new
            methods for method-defined parameters, the lack of a clearly defined “cut-off”
            date for method submissions, and the failure to clearly communicate the two
            approval pathways played substantial roles in the issues observed. In our view,
            these management control weaknesses also have the potential to impact future
            EPA method reviews if not addressed.

Recommendations

            We recommend that the Assistant Administrator for Water:

               1.	 Establish a procedure for reviewing proposed methods for method-defined
                   analytes. This procedure should provide a general framework for review
                   and address, at a minimum, the following issues:

                       	 Data to be submitted by the method developer or VCSB.
                       	 Statistical tests or analyses to be conducted to determine
                          comparability between the new proposed method and the existing
                          approved method.



13-P-0317                                                                                 15
               2. 	 Establish procedures for designating official cut-off dates for future
                    proposed MURs, and include these procedures on OW’s website

               3. 	 Clarify on EPA’s website OW’s procedures and communications policies
                    regarding the two distinct routes through which new methods may be
                    approved by EPA.

Agency Comments and OIG Evaluation
            OW generally agreed with our recommendations and provided a corrective action
            plan with milestone dates to address recommendations 1 and 3. OW’s proposed
            corrective actions and planned completion dates for recommendations 1 and 3
            meet the intent of our recommendations. These recommendations will remain
            open pending completion of the proposed corrective actions.

            For recommendation 2, OW issued a memorandum on June 6, 2013, that outlines
            procedures for establishing cut-off dates for future MUR rulemakings, including
            posting the cut-off dates on OW’s website at least 6 months before proposing a
            MUR. According to the memorandum, OW will also post an explanation on its
            website as to what the cut-off dates mean. This action meets the intent of
            recommendation 2. Therefore, we are closing recommendation 2 upon issuance
            of this report.

            No further EPA response to this report is required. Appendix B contains the
            Agency’s response to our draft report, including its planned actions for each
            recommendation. The Agency also provided technical comments on the draft
            report, which we have incorporated into our report as appropriate.




13-P-0317                                                                                    16
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.   Page                                                                                                Completion   Claimed    Agreed-To
    No.     No.                          Subject                           Status1      Action Official           Date      Amount      Amount

     1       15    Establish a procedure for reviewing proposed              O       Assistant Administrator    12/31/13
                   methods for method-defined analytes. This                                for Water
                   procedure should provide a general framework for
                   review and address, at a minimum, the following
                   issues:
                       Data to be submitted by the method
                        developer or VCSB.
                       Statistical tests or analyses to be conducted
                        to determine comparability between the new
                        proposed method and the existing approved
                        method.

     2       16    Establish procedures for designating official cut-off     C       Assistant Administrator     6/6/13
                   dates for future proposed MURs, and include these                        for Water
                   procedures on OW’s website.

     3       16    Clarify on EPA’s website OW’s procedures and              O       Assistant Administrator    9/30/13
                   communications policies regarding the two distinct                       for Water
                   routes through which new methods may be
                   approved by EPA.
                             




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




13-P-0317                                                                                                                                     17
                                                                                                       Appendix A

   EPA’s Adherence to Applicable Laws, Regulations, 

               Policies, and Guidance 

Table A-1 below lists the statutes, regulations, policies, and guidance (i.e., criteria documents)
that are applicable to EPA’s review and handling of ASTM D7575. The table provides a brief
description of the applicable requirements for each criteria document and a description of the
actions EPA took regarding those requirements.

Table A-1: Summary of EPA actions taken to meet applicable requirements
                                                                                   Description of actions regarding
  Key criteria     Description of applicable criteria or requirements                 applicable requirements

Administrative    This act discusses the general requirements federal            EPA published its September 2010
Procedure Act     agencies must follow for rulemakings. It states that           proposed MUR and December 2011
                  agencies must provide notice of proposed rulemakings           NODA in the Federal Register. EPA
                  in the Federal Register. After this notice, the agency         provided periods of public comment for
                  must provide the opportunity for public comment on the         both.
                  proposal.


Clean Water Act   Section 304(h) requires EPA to promulgate guidelines           EPA developed these guidelines, which
                  establishing test procedures for the measurement of            are codified in 40 CFR Part 136.
                  pollutants regulated under the NPDES program
                  (i.e., Section 402).

40 CFR            40 CFR Part 136 establishes guidelines for test                Although D7575 was submitted under
Part 136          procedures (methods) to be used in wastewater                  the NTTAA, not the ATP program,
                  programs, specifically the NPDES program and its               EPA required the method developer
                  related applications, permits, and reports. It lists all the   and ASTM to submit comparability data
                  methods that have been approved and promulgated by             as required by 40 CFR Part 136. EPA
                  EPA for use.                                                   used those data to assess how ASTM
                                                                                 D7575 performs in comparison to
                  Part 136 describes the application and approval                EPA Method 1664A.
                  process to be followed for methods submitted to the
                  ATP program. The guidelines require comparability              Further, EPA published the NODA in
                  data to be submitted which show how the proposed               the Federal Register to obtain public
                  method performs in comparison to an already-approved           comment on whether to reconsider
                  method. After the ATP coordinator reviews the                  ASTM D7575.
                  proposed method, he or she is to recommend to the
                  Administrator whether to accept or reject the method.
                  Methods recommended for approval are to be
                  published in the Federal Register for public comment,
                  and subsequently a final decision on approval is to be
                  made in the Federal Register.

                  Part 136 does not discuss the review and approval of
                  methods submitted to EPA via the NTTAA.




13-P-0317                                                                                                            18
                                                                                   Description of actions regarding
   Key criteria         Description of applicable criteria or requirements            applicable requirements

 EPA’s Action      Under the ADP, each new regulatory action is assigned         EPA tiered the MUR as a Tier 3 action.
 Development       a tier level that appropriately corresponds to the level of   The NODA is also a Tier 3 action since
 Process (ADP):    complexity, needed cross-Agency input, controversy/           it is an outgrowth of the MUR.
 Guidance for      visibility, and need for involvement by top-level
 EPA Staff on      managers. Actions are assigned as Tier 1, Tier 2, or          EPA convened a workgroup for the
 Developing        Tier 3 actions. Tier 1 actions are the most complex,          MUR rulemaking, although this is not
 Quality Actions   require the most cross-agency collaboration, and have         required for Tier 3 actions.
 (revised March    the highest need for involvement by top-level
 2011)             managers.

                   The ADP contains many specific requirements for
                   actions that are tiered at more elevated levels
                   (i.e., Tier 1 and Tier 2). These include forming
                   intra-agency workgroups and developing options
                   selections to present to senior officials in EPA.
                   However, these are voluntary for Tier 3 actions.

 National          Per section 12(d) of the NTTAA, federal agencies shall        EPA assessed the viability of ASTM
 Technology        use technical standards developed or adopted by               D7575 per the requirements of the
 Transfer and      VCSBs, unless doing so would be inconsistent with             NTTAA. It spent considerable effort in
 Advancement       applicable law or otherwise impractical.                      attempting to determine whether
 Act                                                                             approving ASTM D7575 as an
                                                                                 alternative for EPA Method 1664A
                                                                                 would be practical, specifically by
                                                                                 assessing comparability between the
                                                                                 two methods.

 OMB Circular      OMB Circular A-119 is OMB’s implementing guidance             EPA spent considerable effort in trying
 A-119 (revised    for the NTTAA for federal agencies. It states that            to determine whether approving the use
 February 1998)    agencies “must use voluntary consensus standards,             of ASTM D7575 would be practical,
                   both domestic and international, in its regulatory and        specifically considering its comparability
                   procurement activities in lieu of government-unique           to EPA Method 1664A. Note that the
                   standards, unless use of such standards would be              OMB circular provides EPA discretion
                   inconsistent with applicable law or otherwise                 in declining the use of ASTM D7575 if it
                   impractical. In all cases, your agency has the discretion     determines it is impractical.
                   to decline to use existing voluntary consensus
                   standards if your agency determines that such
                   standards are inconsistent with applicable law or
                   otherwise impractical.”

Source: OIG analysis.




 13-P-0317                                                                                                             19
                                                                                     Appendix B

                 Agency Comments on Draft Report
                                             May 15, 2013

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report No. OPE-FY12-0013
          “Results of Hotline Complaint Review Concerning EPA’s Handling of a Proposed
          Alternative Method for Measuring Oil and Grease in Wastewater,” dated March
          28, 2013

FROM:	         Nancy K. Stoner
               Acting Assistant Administrator

TO: 	          Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject report.
Following is a summary of the Agency’s overall position, along with its position on each of the
report recommendations. For those report recommendations with which the Agency agrees, we
have provided either high-level intended corrective actions and estimated completion dates to the
extent we can or reasons why we are unable to provide high-level intended corrective actions and
estimated completion dates at this time. For your consideration, we have included a version of the
report with our suggested edits and comments as an attachment to supplement this response.

AGENCY’S OVERALL POSITION

The Office of Water generally agrees with the draft report. We note that the objective as stated in
the draft report was to “evaluate whether the EPA, in reviewing ASTM D7575, adhered to
applicable laws, regulations, policies, procedures, and guidance,” and that the investigation
concludes that the EPA did, in fact, adhere to applicable laws, regulations, policies, procedures,
and guidance in handling the proposed alternative oil and grease method, ASTM D7575.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No.    Recommendation                             High Level Intended       Estimated Completion
                                                  Correction Action         by Quarter and FY
1       Establish a procedure for reviewing       1.1 The OW will           The EPA expects to
        proposed methods for method-defined           establish a           have a draft procedure
        analytes.                                     procedure for         by December 2013.
                                                      reviewing
                                                      proposed methods
                                                      for method-


13-P-0317                                                                                       20
                                                              defined analytes
                                                              for CWA use
2         Establish procedures for designating            1.1 When the EPA             The OW will make
          official cut-off dates for future                   initiates a methods      such determinations
          proposed MURs, and include these                    update rulemaking        and post the
          procedures on the OW’s website                      (MUR), it will           information on its
                                                              designate cut-off        website within a
                                                              dates for                sufficient amount of
                                                              consideration of a       time prior to
                                                              method for the           proposing a MUR,
                                                              MUR                      generally at least 6
                                                          1.2 The OW will post         months.[16]
                                                              these dates on its
                                                              website
                                                          1.3 If the MUR is
                                                              delayed and the
                                                              EPA determines it
                                                              is appropriate to
                                                              extend these dates,
                                                              OW will post
                                                              revisions to its
                                                              website
3         Clarify on the EPA’s website OW’s               The OW will clarify          The OW plans to post
          procedures and communications                   on its website its           this information to its
          policies regarding the two distinct             procedures and               website in 3rd Quarter
          routes through which new methods                communications               FY 2013. [17]
          may be approved by the EPA                      policies regarding the
                                                          two distinct routes
                                                          through which new
                                                          methods may be
                                                          approved by the EPA
                                                          in 40 CFR Part 136

Thank you for the opportunity to review the draft report. The Office of Water generally agrees
with the draft recommendations. Please contact Jan Matuszko at 202-566-1035 if you have any
questions or need additional information.

Attachment

cc: EPA IG Liaison Team

16
   Subsequent to this action plan, OW clarified its response to Recommendation 2. On June 6, 2013, OW issued a 

memorandum to staff that outlines OW’s procedures for establishing cut-off dates for future MUR rulemakings, 

including posting the cut-off dates on OW’s website at least 6 months before proposing a MUR. According to the 

memorandum, OW will also post an explanation on its website as to what the cut-off dates mean. 

17
   On July 2, 2013, the Director of OW’s Engineering and Analysis Division requested that the planned completion 

date for the corrective action for recommendation 3 be changed to September 30, 2013. We agreed with this change. 



13-P-0317                                                                                                      21
                                                                            Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Water
Audit Follow-Up Coordinator, Office of Water




13-P-0317                                                                           22
